No. 20-1652

SUPREME COURT OF THE UNITED STATES

Meghan Belaski et al.,
Petitioner(s)

vs.
Securities and Exchange Commission
Respondent

PROOF OF SERVICE
Meghan Christine Belaski, do swear or declare on June 5, 2021, I served the
enclosed letter for blanket consent for the filing of amicus curiae briefs in case no.
20-1652, on each party, or that party's counsel; and on every other person required
to be served, by depositing an envelope containing the blanket consent letter in the
United States mail properly addressed to each and with USPS 2-day priority mail
prepaid. The Supreme Court received this letter on June 7, 2021, at 10:52 a.m., with
2-day priority USPS tracking number 9114 9011 5981 5983 3698 97. The
Respondent has yet to receive the letter even though it was sent on the same day,
June 5, 2021, same 2-day USPS priority mail with tracking number 9114 9011 5981
5983 369910. The Solicitor General for the United States also was sent the same
letter, by 2-day USPS priority mail on June 5, 2021, and its tracking number, 9114
9011 5981 5983 3698 73, indicates it was delivered today, June 9, 2021, and was
available for pick-up at 11:26 a.m. Petitioner Belaski is concerned why it has taken
over 5 days for the Respondent and the Solicitor General to receive the same letter
the Supreme Court only took 2 days to receive considering there is only a 30-day

RECEIVED
JUN 1 7 2021
trapricnolncgR
I.4.

window for any amicus curiae briefs to be filed under blanket consent once this case
was docketed.
The names and addresses of those receiving the blanket consent letter and now
proof of service of that blanket consent letter are:

biz
INL-20S-Liq (it
s , twin 570 ice ,
5y / va_.0 *wet /uvj1 (.0a_slt;

611

I declare under penalty of perjury that the foregoing is true

Ger:ie.-4.0ot
6, 167)

c9-05-30 —006
d correct.

Executed on June 9, 2021
(Signature)

U

,

